March 31, 2003

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

SUBJECT:     Audit Report – Highway Network Scheduling – New York Metro Area
             (Report Number TD-AR-03-008)

                                           Background
On July 5, 2002, the Office of Inspector General (OIG) announced an audit of highway
network scheduling. The announcement responded to a request from the vice
president, Network Operations Management. This report is one in a series of reports. It
focuses on the New York Metro Area (Project Number 02YG017TD001).




              Highway contract terminating route at the Air Mail Center at John F. Kennedy
                    International Airport, New York, New York, September 16, 2002.
Highway Network Scheduling – New York Metro Area                                                                  TD-AR-03-008




                                Objective, Scope, and Methodology
The objective of our audit was to evaluate the effectiveness of scheduled highway
contract routes, and to identify opportunities for cost savings. The vice president,
Network Operations Management, provided a list of plant-to-plant highway contract
routes he wanted considered for elimination or consolidation. A total of 1,027 trips were
operated under the 70 New York Metro Area contracts.1 In preparation for our work, we
provided the area transportation manager in the New York Metro Area with the list of
contracts we intended to audit. During our work, we interviewed officials at
headquarters and in the New York Metro Area, reviewed relevant Postal Service
policies and procedures, visited five plants, interviewed managers and employees,
observed and photographed operations, analyzed data in the Postal Service
Transportation Information Management Evaluation System, evaluated mail volume and
critical entry times for First-Class and Priority Mail, and analyzed all 1,027 trips. We did
not evaluate the reliability of the data obtained from the Transportation Information
Management Evaluation System. Work associated with the New York Metro Area was
conducted from July through March 2003 in accordance with generally accepted
government auditing standards, and included such tests of internal controls, as were
considered necessary under the circumstances. We discussed our conclusions and
observations with appropriate management officials, and included their comments,
where appropriate.

                                             Prior Audit Coverage

Our audit report, Highway Network Scheduling – Pacific Area (Report
Number TD-AR-02-003, dated September 24, 2002), identified 158 highway
contract trips we thought could be eliminated, and consequently result in savings to
the Pacific Area of about $4.5 million. Management agreed with 124 trip terminations,
but subsequently made certain substitutions they considered appropriate. Although
local plant managers disagreed with 34 trips we identified, management agreed to
reassess the trips, retain or eliminate trips as appropriate, and notify the OIG of all
cancelled trips, as well as the resulting savings. We considered management’s actions
responsive to our recommendations.

Our audit report, Highway Network Scheduling – Northeast Area (Report
Number TD-AR-03-002, dated November 25, 2002), identified 18 highway contract
trips we thought could be eliminated, and consequently result in savings to the
Northeast Area of about $777,000. Management agreed with the intent of our
recommendations and made certain substitutions they considered appropriate.
Although local plant managers disagreed with eight trips we identified, management
agreed to reassess the trips, retain or eliminate trips as appropriate, and notify the OIG

1
   The list of contract routes provided by the vice president, Network Operations Management, included 83 contracts, however,
five were inactive or terminated and eight fell under the Trenton Processing and Distribution Center, which had been closed.




                                                                2
Highway Network Scheduling – New York Metro Area                                     TD-AR-03-008



of all cancelled trips, as well as the resulting savings. We considered management’s
actions responsive to our recommendations.

                                       Audit Results
Unnecessary Highway Contract Trips

Our audit revealed that the Postal Service could save about $470,000 over the term of
existing New York Metro Area highway contracts by canceling 32 unnecessary trips.
The trips could be terminated because trip mail volume was low, and mail could be
consolidated on other trips without negatively affecting service. The cost savings we
identified were net of contract cancellation fees totaling approximately $74,000.

After we completed our analysis, we discussed the 32 trips with plant managers. The
managers agreed 12 trips could be canceled, but disagreed with our assessment of
another 20 trips. The trip cancellation proposals are summarized in the following table:

                               TRIP CANCELLATION PROPOSALS

                  CANCELLATION                     NUMBER                IDENTIFIED
                    CATEGORY                       OF TRIPS   APPENDIX     SAVING

       Trips we identified during audit work
       with which plant managers agreed.                12       A        $182,142

       Trips we identified during audit work
       with which plant managers disagreed.            20        B        $287,981

       Total                                            32                $470,123



The plant managers disagreed with the 20 cancellation proposals for various reasons–
generally that eliminating the trips would reduce operational flexibility or affect service.
We continue to believe the potential for trip cancellation exists, without jeopardizing
service or operational flexibility.

Recommendation

We recommend the vice president, New York Metro Area Operations:

       1. Cancel the 12 trips, which plant managers agree are unnecessary.




                                                   3
Highway Network Scheduling – New York Metro Area                              TD-AR-03-008



Management’s Comments

Management agreed with our recommendation and stated that the contracting officer at
the New York Distribution Networks Office already authorized termination of all 12 trips.
Management’s comments, in their entirety, are included in Appendix C of this report.

Recommendation

We recommend the vice president, New York Metro Area Operations:

       2. Reassess the 20 trips plant managers feel are necessary, cancel trips
          indicated by the reassessment as unnecessary, and document the reasons
          for retaining the other trips.

Management’s Comments

Management agreed with our recommendation and stated that during their
Breakthrough Productivity Initiative they would reassess the 20 trips plant managers felt
were necessary.

Evaluation of Management’s Comments

Management’s response cited savings at variance with the savings we identified. They
suggested the variance was the difference between annual savings and savings
projected over the canceled term of terminated contracts. However, management did
not otherwise support the amounts they cited, and we cannot determine from the
information provided whether the amounts they cited are reasonable. Nonetheless,
management promised that at the completion of their reassessment, they would notify
the OIG of actions they had taken, and the resulting savings they anticipated. At that
time, we will be able to examine the accuracy of their projections. In the interim, we
consider management’s comments responsive to our recommendations, and the
actions taken or planned should correct the issues identified in the report.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                                   4
Highway Network Scheduling – New York Metro Area                             TD-AR-03-008



We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions, or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at 703-248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Patrick R. Donahoe
    John A. Rapp
    Anthony M. Pajunas
    Susan M. Duchek




                                                   5
Highway Network Scheduling – New York Metro Area                                                  TD-AR-03-008



                      APPENDIX A. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                WHICH AREA MANAGERS AGREED

Highway                                                                               Estimated            Estimated
Contract                                                                              Life of    Indemnity Cost
Route            Trip Number       Origin/Destination                                 Contract   Fees      Savings
08810            17 and 18         Kilmer P&DC* to Newark Air Mail Center and            $20,905    $3,484    $17,421
                                   return
08810            7 and 8           Kilmer P&DC to Continental Airlines and return        18,966       3,161        15,805
07711            5 and 6           Monmouth P&DC to Newark Air Mail Center               58,097       4,841        53,256
                                   and return
07029            13 and 14         New Jersey Facility to Bronx Facility and return      43,669       7,278        36,390
07032            11and12           Newark P&DC to Westfield Facility and return           4,111           0         4,111
10513            11S and 12S       Westchester P&DC to LaGuardia Air Mail                66,190      11,032        55,158
                                   Center and return
Total            12 Trips                                                              $211,938    $29,796       $182,142

*Processing and Distribution Center




                                                              6
Highway Network Scheduling – New York Metro Area                                             TD-AR-03-008




                      APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                               WHICH AREA MANAGERS DISAGREED

Highway                                                                         Estimated              Estimated
Contract                                                                        Life of      Indemnity Cost
Route         Trip Number       Origin/Destination                              Contract     Fees      Savings

07611         3 and 4           Hackensack P&DC* to Newark P&DC and return         $23,438       $3,906      $19,532
07611         33 and 34         Hackensack P&DC to Newark P&DC and return            5,143          857        4,286
07692         3 and 4           Hackensack Annex to Saddle Brook Facility and       42,362        7,060       35,302
                                return
08810         1 and 2           Kilmer P&DC to Newark Air Mail Center and           20,905        3,484       17,421
                                return
08810         19 and 20         Kilmer P&DC to D.V. Daniels P&DC and return         34,696        5,738       28,913
11710         15 and16          Mid-Island P&DC to J. Farley P&DC and return        67,110        7,457       59,653
07028         5 and 6           D.V. Daniels P&DC to New Jersey Facility and        25,649            0       25,649
                                return
07032         1 and 2           Newark P&DC to Westfield Facility and return        21,210           0        21,210
07129         7 and 8           Newark P&DC to New Jersey Facility and return       59,518       9,920        49,498
07910         7 and 8           West Jersey P&DC to Newark P&DC and return          31,700       5,283        26,417
Total         20 Trips                                                            $331,731     $43,750      $287,981

*Processing and Distribution Center




                                                           7
Highway Network Scheduling – New York Metro Area       TD-AR-03-008



                  APPENDIX C. MANAGEMENT’S COMMENTS




                                                   8
Highway Network Scheduling – New York Metro Area       TD-AR-03-008




                                                   9
Highway Network Scheduling – New York Metro Area        TD-AR-03-008




                                                   10
Highway Network Scheduling – New York Metro Area        TD-AR-03-008




                                                   11
